Centers for Medicare and Medicaid Services (CMS) | Office of Inspector General
Follow-Up Audit of the Medicaid Drug Rebate Program in Connecticut
June 12, 2008 | Audit A-01-08-00002
Executive Summary
In a follow-up audit of Connecticut's Medicaid drug rebate program, we found that the State had not implemented the recommendation from our prior audit to establish procedures to provide accurate pending rebate amounts and properly present an aging schedule of its drug rebate receivables in its quarterly reports to the Centers for Medicare and Medicaid Services (CMS).  Manufacturers may make their outpatient drugs eligible for Federal Medicaid funding by entering into a rebate agreement with CMS and paying quarterly rebates to the States.  We also found that the State had established controls over collecting rebates for single-source drugs administered by physicians.
We reiterated our recommendation that the State establish procedures to provide accurate pending rebate amounts and properly present an aging schedule of its drug rebate receivables in its quarterly reports to CMS.  The State agreed with our finding and recommendation.
Complete Report
Download the complete report  (PDF)
Copies can also be obtained by contacting the Office of Public Affairs at 202-619-1343.
Return to CMS